Visa Benefits

Share
Secured

®

With card options to fit your individual
needs, True Sky Credit Union’s Visa® Credit
Cards are sure to be a perfect fit.
Cash Back Card:
Cash back on every purchase
No annual fee
based transactions
Zero liability on purchases (PIN
do not apply)
Online payments and balances
Up to $250,000 in travel accident insurance
Auto rental insurance
Platinum and Gold Cards:
ScoreCard Rewards
Zero liability on purchases (PIN based transactions
do not apply)

Online payments and balances
Up to $500,000 in travel accident insurance
Auto rental insurance
Warranty manager
Emergency/travel assistance services
Emergency card/cash disbursement
Cardholder inquiry service (800) VISA-911
Classic Card:
based transactions
Zero liability on purchases (PIN
do not apply)
Online payments and balances
Up to $250,000 in travel accident insurance
Auto rental insurance

Platinum

Gold

Classic

Cash Back

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for
Purchases

5.99%

7.99%

11.99%

13.90%

16.99%

APR for Balance Transfers and Cash Advances

5.99%

7.99%

11.99%

13.90%

16.99%

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date each month.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
Balance Transfer

3% of the amount of each balance transfer. No grace period.

Cash Advance

No cash advance fee. No grace period on cash advances.

Foreign Transaction

1.00% of each transaction in U.S. Dollars

Penalty Fees
Late Payment

up to $25.00

How We Will Calculate Your Balance: We use a method called “average daily balance”. (including new purchases)
Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is
provided in your account Agreement.
This information is accurate as of July 2020
2019 and is subject to change. You should contact us for any changes to this
information at (800) 448-1990, or write to us at P.O. Box 26406, Oklahoma City, OK 73126. You have no grace period in
which to repay your balance for cash advances before a finance charge will be imposed.

To report a lost or stolen card, call 800.453.4270.

Apply online at
TrueSkyCU.org.

TSCU_Visa_CC_Rate_Disclosure_Q3_2020

